No. 20A136 & 20A137

In the Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH AND BISHOP ARTHUR HODGES III,
Applicants,

v.

GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA, ET AL.,
Respondents.
HARVEST ROCK CHURCH, INC., ET AL.,
Applicants,

v.

GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF CALIFORNIA,
Respondents.
To the Honorable Elena Kagan, Associate Justice of the United States
Supreme Court and Circuit Justice for the Ninth Circuit
CERTIFICATE OF COMPLIANCE
I, Eric Rassbach, a member of the Bar of this Court and counsel for the amicus
on the accompanying Motion by The Becket Fund for Religious Liberty, with Attached
Proposed Amicus Curiae Brief in Support of Applicants, for Leave (1) to File the Brief
and (2) to Do So without Ten Days’ Notice, certify under Rule 33.1(h) of the Rules of
this Court that the motion contains 432 words and the brief contains 4,056 words,
excluding the parts that are exempted by Rule 33.1(d).

Eric Rassbach

